No. 20-1116

Su the Supreme Court of the Anited States

Anthony Seward,
Petitioner,

v.

United States,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the First Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Reply Brief in
the above-entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in Century Schoolbook 12 point for the text and 10
point for the footnotes, and that the Reply Brief contains 930 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Lg

Stuart Banner

UCLA School of Law
405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu
Counsel for Petitioner

Executed on April 22, 2021.
